       ADVISORY REPORT

       COSTS CLAIMED BY THE
         STATE OF GEORGIA,
     DEPARTMENT OF NATURAL
        RESOURCES, WILDLIFE
      RESOURCES DIVISION AND
   COASTAL RESOURCES DIVISION
    UNDER FEDERAL AID GRANTS
       FROM THE U.S. FISH AND
      WILDLIFE SERVICE FROM
     JULY 1, 1997 TO JUNE 30, 1999




DECEMBER 2002   Report No. 2002-E-0008
                                                                          X-GR-FWS-0013-2003

            United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240


                                                                               December 31, 2002

                                 ADVISORY REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the State of Georgia Department of
           Natural Resources, Wildlife Resources Division and Coastal Resources Division
           under Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1997
           to June 30, 1999 (No. 2003-E-0008)

                                     Introduction
        This report presents the results of our performance of agree-upon procedures related to
costs claimed by the State of Georgia Department of Natural Resources (Department) under
Federal Aid grants from the U.S. Fish and Wildlife Service (FWS) for the period July 1, 1997 to
June 30, 1999.

Background and Scope

        The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the
Federal Aid in Sport Fish Restoration Act, as amended (16 U.S.C 777) (the Acts), authorize
FWS to provide Federal Aid grants to states to enhance their sport fish and wildlife programs.
The Acts provide for FWS to reimburse the states up to 75 percent of all eligible costs incurred
under the grants. The Acts specify that state hunting and fishing license revenues cannot be
used for any purpose other than the administration of the state’s fish and game agencies. FWS
also provides grants to the states under the Clean Vessel Act and the Endangered Species Act.

        In April 2000, another audit agency began an audit of the Federal Aid grants awarded to
the Department for fiscal years 1998 and 1999. The scope of its audit work, as stated in the
announcement letter to the Department, was to evaluate (1) the adequacy of the Department’s
accounting system and related internal controls; (2) the accuracy and eligibility of the direct and
indirect costs claimed by the Department under Federal Aid grant agreements with FWS; (3) the
adequacy and reliability of the Department’s hunting and fishing license fees collection and
disbursement process; and (4) the adequacy of the Department’s purchasing system and related
internal controls. The audit was also to include an analysis of other issues considered to be
sensitive and/or significant to FWS. The audit work at the Department covered claims totaling
approximately $29 million on FWS grants that were open during the Department’s fiscal years
ending June 30, 1998 and 1999 (see Appendix). The audit agency’s agreement with FWS
expired before issuance of a preliminary draft report to the State of Georgia, although the agency
discussed the preliminary results of the audit with the Department on January 22, 2001.

        From 1996 through September 2001, the audit agency conducted audits of Federal Aid
grants under a reimbursable agreement with FWS. The FWS did not renew or extend its
agreement with the audit agency. At the time of expiration, final audit reports on several
uncompleted audits had not been issued, and the audits were in various stages of the audit and
reporting processes. The audit agency indicated in a September 27, 2001 memorandum that its
supervisors had not reviewed the working papers for the audit of the State to ensure that (1)
sufficient, competent and relevant evidence was obtained, (2) evidential matter contained in the
working papers adequately supported the audit findings in the report, and (3) sound auditing
techniques and judgment were used throughout the audit.

        On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which FWS
requested the OIG to (1) review the audit work performed by the audit agency, including its
working papers, summaries, and draft reports for these audits and (2) issue reports on the
findings that were supported by the working papers. Accordingly, our review was limited to
performing the procedures set forth in the Agreement, and our conclusions presented in the
report are limited to findings substantiated by the working papers. We did not perform any
additional audit work of the grantee’s records, and the limited work performed under these
procedures does not constitute an audit in accordance with Generally Accepted Government
Auditing Standards.

       Findings affecting the State’s administration of the Federal Aid program are presented in
the body of the report, and other management issues are presented in Appendix 2.

                                    Results of Review
       The results of our review of the working papers disclosed the following:

       •   Interest totaling $1,927,760, earned by the State on hunting and fishing license
           revenues, was not returned to the Department; and we could not determine from
           documentation submitted by the Department whether State appropriations to the
           Department were used on a sufficient amount eligible fish and wildlife-related
           activities to compensate for the interest.

       •   Costs of $596,616, consisting of $451,101 incurred outside the grant period and
           $145,515 for excess encumbrances were questioned.

       •   Program income of $99,269 was not reported on financial status reports.

       •   Accounting for costs of multiple projects under a single grant agreement needed
           clarification.


                                                2
          •   Internal controls related to the Department’s personal and real property systems were
              not operating adequately.

A.        Interest on License Revenues
        The Code of Federal Regulations (50 CFR 80.4) states that “Revenues from license fees
paid by hunters and fishermen shall not be diverted to purposes other than administration of the
State fish and game agency.” The regulation defines license revenues to include income from
“interest, dividends, or other income earned on license revenues.”

        The working papers identified interest totaling $1,927,760 earned by the State on hunting
and fishing license revenues in fiscal years 1998 and 1999 that was not returned to the
Department. The interest amounts were computed as follows:

                    Fiscal            License            Interest          Interest
                    Year             Revenues             Rates            Earned

                 1998               $17,627,759           5.47 %             $964,238
                 1999               $18,352,804           5.25%             $963,522
                 Total                                                     $1,927,760


        The interest rates used by the audit agency were the annual money market rates provided
by the State Treasury. For example, the average rate for 1999 was computed as follows [(1999
rate of 5.03% + 1998 rate of 5.46%)/2 = 10.49 / 2 =5.25 %]. In accordance with the State’s
legislation, the license revenues are deposited into the State Treasury. While the legislation
prevents the diversion of the revenues, it does not mention the interest earned. Rather than
earmarking specific interest back to the Department, the legislature appropriated funds each year
(approximately $32 million in 1999), which, in the Department’s opinion, more than covers the
interest earned. We could not determine from the working papers, however, whether the
appropriations contained sufficient unrestricted funds (that is, funds that were not earmarked for
activities that would not be allowable uses of license revenue, such as boating registration) to
cover the interest.

Recommendations

     We recommend that FWS:

     1.       Resolve the estimated $1,927,760 of interest on license revenues. To do so, FWS will
              need to determine whether the State’s annual appropriation included sufficient
              unrestricted funds to compensate for the interest earned.

     2.       Require the Department to obtain an amendment to State legislation that would
              require the interest earned on license revenues to be specifically identified in the
              State’s annual appropriation to the Department.




                                                     3
Department and U.S. Fish and Wildlife Service Responses

        The Department indicated that it received State appropriations totaling $59.6 million for
the 2-year audit period and that these appropriations exceeded license revenues for those years
by $22.8 million. The Department also provided a copy of the current State law, which
specifically prohibits the diversion of interest earned on license revenues. The FWS did not
provide a written response to the recommendations.

Office of Inspector General Comments

        The documentation submitted by the Department in response to Recommendation 1 was
not sufficiently detailed for us to determine whether the $22.8 million of appropriations in excess
of license revenue collections included sufficient unrestricted funds to offset the $1,927,760 in
interest earned during the audit period. The FWS will need to make that determination. The
Department’s response to Recommendation 2 was adequate to consider the Recommendation
resolved and implemented.

B. Questioned Costs
       The working paper review of costs incurred under Federal Aid grants for fiscal years
1998 and 1999 disclosed the following questioned costs.

                                                              Out-of-
   Grant                          Excess                      Period
    No.        Description     Encumbrances           Notes    Costs      Notes      Total

 W-36-37      Statewide                  $2,809        1       $14,147      2        $16,956
              Wildlife
              Development
 FW-5-1       Automated                 101,259       1, 3                           101,259
              Sportsman
 F-48-5       Berrian                    13,715        1       234,862      2        248,577
              County PFA
 F-56-5       Marben PFA                    936        1         9,828      2         10,764
 F-41-13      Boat Ramp                   4,070        1       120,717      2        124,787
 E-I-20       Statewide                   1,263        1        11,000      2         12,263
              End. Species
 E-3-12       Statewide                  12,250        1                               12,250
              End. Plants
 F-64-1       Aquatic                       540        1         4,144      2           4,684
              Vegetation
 F-60-3       Cool Water                    354        1           969      2           1,323
              Springs
 E-1-22       Statewide                   1,607        1                                1,607
              End. Species
 E-3-13       Statewide End                                      5,390      2           5,390
              Plants
 F-41-14      Boat Ramp                   4,291        1                                4,291
                                                  4
 F-64-2       Aquatic                        852        1        50,044       2         50,896
              Vegetation
 P-3-1        Swainson’s                   1,569       1, 4                               1,569
              Warblers
              Total                    $145,515         1     $451,101        2       $596,616

Notes

        1. Excess Encumbrances. The working papers identified questioned costs of $145,515,
which represent the difference between the encumbered amounts and the amounts incurred based
on the invoices. The Department typically recorded a large acquisition in its accounting system
as an encumbrance, which represented the Department’s estimate of the cost of the transaction.
The accounting system, however, treated the encumbrance as though it was an actual expense
and included the encumbered amount in the total amount used for billing. When the amount of
the actual invoice was less than the encumbered amount and the difference was not properly
credited to the grant, recorded expenditures exceeded actual costs. Furthermore, the practice of
billing based on encumbrances is contrary to the Code of Federal Regulations (31 CFR
205.7(c)(5), which require that claimed costs be paid prior to the date of reimbursing the
expense.

      2. Out-of-Period Costs. The working papers questioned costs of $451,101 representing
out-of-period costs that either were not incurred until after the end of the grant period or were not
paid until after submission of the final Financial Status Report. The Department should have
requested an extension of the grant agreement until the invoices were paid, but instead drew
down Federal Aid funds prior to receiving the invoices. The Code of Federal Regulations
(43 CFR 12.63) state, “Where a funding period is specified, a grantee may charge to the award
only costs resulting from obligations of the funding period unless carryover of unobligated
balances is permitted.” The regulation also states, “A grantee must liquidate all obligations
incurred under the award not later than 90 days after the end of the funding period . . . to
coincide with the submission of the annual Financial Status Report (SF-269). The Federal
agency may extend this deadline at the request of the grantee.” The audit working papers
disclosed that during the 2 years under review, the Department was late in filing final financial
status reports in over 50 percent of the cases. In addition, Grant No. P-3-1 (Swainson’s
Warblers) was not closed out as of December 31, 2000, although the final Financial Status
Report was due on April 15, 2000. The review also found that the Department seldom requested
an extension of the filing deadline from FWS.

        3. Extension of Grant Period. In January 2001, FWS extended the grant period from
June 30, 2000 to June 30, 2005 and increased the Federal share. The working papers indicated
that the Department incurred additional costs after the end of the original grant period, which,
together with the change in the Federal share, will affect the questioned cost amount. FWS
should request the Department to provide updated documentation of amounts charged against the
grant to determine the amount, if any, of the remaining questioned costs.

        4. Excess Drawdown. This amount, which we presented as an excess encumbrance for
ease of presentation, represents costs drawn down in excess of the Federal share. The
Department also identified the error and proposed a credit of $695. The auditors calculated that
the amount should have been $1,569, as follows:

                                                   5
                Amount of Actual Expenses                         $1,306
                Federal Participation                                 33%
                Amount Eligible for Drawdown                       $ 431


                Amount Drawn Down                                   $2,000
                Amount Eligible for Drawdown                           431
                Questioned Costs                                    $1,569

        The Code of Federal Regulations (31 CFR 205.7(c)(5)) requires that costs claimed be
paid prior to the date of reimbursement of the expense. In this case, funds were drawn before the
expenses were paid.

Recommendation

       We recommend that FWS resolve the questioned costs of $596,616.

Department and U.S. Fish and Wildlife Service Responses

       The Department’s response addressed excess encumbrances and out of period costs as
follows:

   •   The Department resolved $110,282 of excess encumbrances by (a) offsetting questioned
       costs against excess grant costs for grants W-36-37 ($2,809), W-41-14 ($4,291), and F-
       60-3 ($354); (b) returning excess drawdowns for grant FW-5-1 to the FWS through
       Smartlink ($101,259) or (c) crediting grant P-3-1 ($1,569) to reduce the overdrawn
       amount. The remaining questioned excess encumbrance costs totaling $35,233 are
       unresolved.

   •   The Department was able to resolve $15,116 of out-of-period costs by offsetting
       questioned costs against excess claimed costs for grants W-36-37 ($14,147) and F-60-3
       ($969). In addressing the remaining $435,885 of questioned out-of-period costs, the
       Department stated, “Funds were encumbered during the grant period for legitimate
       expenditures, in accordance with state purchasing procedures, but payment made after the
       grant period ended.”

       The Department further stated that new procedures have been put in place that include
guidelines for drawing down Federal funds and that these procedures will prevent excess
drawdown of Federal funds.

       The FWS did not provide a written response to the recommendation.

Office of Inspector General Comments

        The Department’s response is sufficient to resolve $125,398 of the questioned costs of
$596,616. The remaining $471,118 is unresolved. The FWS should address the unresolved
costs as part of the corrective action plan.

                                                6
C. Program Income
        The Code of Federal Regulations (43 CFR 12.65(b)) defines program income as “gross
income received by the grantee or subgrantee directly generated by a grant supported activity, or
earned only as a result of the grant agreement during the grant period.” Also, Part 12.65(g)(1) of
the regulations requires that “ordinarily program income shall be deducted from total allowable
costs to determine the net allowable costs.” The working papers identified $99,269 of program
income that was not properly identified in the grant agreement or reported on the final Financial
Status Report.


                                               Fiscal Year    Fiscal Year
     Program Income            Grant No.          1998           1999         Total     Notes

 Crop Allotment              W-36-37, -38           $21,953       $16,775     $38,728     1
 Hay Rental                  W-36-37, -38             4,560        17,300      21,860     1
 Project Wild Registration   F-44-10, -11            20,278        18,403      38,681     2
    Total                                           $46,791       $52,478     $99,269


       1. Crop Allotment and Hay Rental. Each year, the Department received an FWS
Wildlife Development grant for, among other things, the operation and maintenance and habitat
management of wildlife management area lands, including those acquired with license revenues
and grant funds. In fiscal years 1998 and 1999, the Department received income totaling
$38,728 from crop allotments not identified to any specific allotment and income totaling
$21,860 from hay rentals on the Grand Bay Wildlife Management Area. Since Federal Aid
funds were used in operating, maintaining and managing wildlife management areas, the crop
allotment and hay rental income should have been reported as program income for the grants.

        2. Project Wild Registration Fees. The Department received $20,278 in fiscal year
1998 and $18,403 in fiscal year 1999 from participant workshop fees related to the Project Wild,
Aquatic Education program. The Department, however, had not identified this anticipated
program income in the grant agreements and did not report the income on the Financial Status
Reports. The working papers also noted that State legislation requires that all revenue generated
must be spent in the current year in which it is received or it is credited to the State’s general
fund. To avoid potential loss of this revenue, the Department amends any revenues into the
current year’s grant budget. The working papers stated that the auditors verified that this
revenue was spent on Project Wild related activities. However, the revenue should be identified
in the grant agreement and reported on the Financial Status Report.

Recommendation

       We recommend that FWS resolve the $99,269 of unreported program income.

Department and U.S. Fish and Wildlife Service Responses

      The Department stated that the hay rental and crop allotment do not meet the definition of
program income. The Department added that these funds were not generated from land

                                                7
purchased with Wildlife Restoration funds, and this revenue was not produced as a result of
expenditure of Wildlife Restoration monies. The Department further stated that the contractors
are responsible for all costs associated with hay production and the crop allotments existed on
the lands when acquired by the Department.

        Regarding the registration fees paid for Project Wild training workshops, the Department
stated that the report is accurate in its statement that these funds were amended into the budget
and spent on related activities. The Department added that they have implemented a process to
account for the program income resulting from registration fees and the total for each fiscal year
will be included in the annual Project Wild grant agreement.

       The FWS did not provide a written response to the recommendation.

Office of Inspector General Comments

        The information in the Department’s response did not sufficiently justify the
Department’s position regarding the revenues from crop allotment and hay rental. The program
income regulations are applicable to revenues from activities on any lands that are managed with
Federal Aid funds, regardless of whether those lands were acquired with grant funds, license
fees, or state funds. Revenues from the crop allotment and hay rental would be considered
program income if Federal Aid funds were used for managing, monitoring, or supporting those
activities, such as monitoring the activities to ensure compliance with lease terms or
environmental regulations. The FWS needs to determine whether Federal Aid funds were used
for those purposes and if so, require the Department to report those revenues as program income.

        The Department’s response was sufficient to resolve the part of finding regarding the
Project Wild Registration fees.

D. Project Level Accounting
       Some Federal Aid grants awarded during fiscal years 1998 and 1999, such as those for
endangered species, provided funds for several projects under a single grant agreement. While
he Department budgeted costs at the project level, it accumulated and reported costs at the grant
level.

        The working papers indicate that it is the Department’s understanding that FWS Region 4
had approved that accounting would be done at the total grant level and not at the individual
project level. Accordingly, the Department generally accounted for costs at the grant level and
submitted its financial status reports on a total grant basis. However, the working papers also
indicated that the Regional 4 guidance conflicts with the requirements of 43 CFR 12.80 and 43
CFR 12.70, which require costs to be accumulated and reported at the project level.

        The regulations (43 CFR 12.80) require grantees to monitor grant and subgrant-supported
activities to ensure compliance with Federal requirements and achievement of performance
goals. The regulations (43 CFR 12.70) state that unless waived by an awarding agency, certain
types of post-award changes in budgets and projects require prior written approval of the
awarding agency. Further, 43 CFR 12.70(c)(ii) requires that “unless waived by the awarding
agency, cumulative transfers among . . . separately budgeted . . . projects . . . which exceed or are
expected to exceed ten percent of the current total approved budget, whenever the awarding
                                                 8
agency’s share exceeds $100,000” require prior written agency approval. The working papers
did not take exception to any costs as a result of actual expenditures exceeding cost limits.
However, unless costs are accounted for on a project level, neither the Department nor FWS will
know if project-level expenditures are exceeding the limits prescribed in 43 CFR 12.70(c)(ii).

Recommendation

       We recommend that FWS resolve the issue of project versus grant agreement accounting.

Department and U.S. Fish and Wildlife Service Responses

      Neither the Department nor the FWS provided a written response to the
recommendation.

Office of Inspector General Comments

      The FWS needs to respond to the recommendation and provide an action plan on how the
recommendation will be resolved.

E. Control Over Personal Property
     The working papers disclosed that the Department needed to improve its asset management
system and internal controls relating to the accountability and disposal of personal property
acquired with Federal Aid funds. Reviews of the system by the audit agency and by the State
Auditor’s Office in 1998 and 1999 found that prescribed controls were not operating as planned.
The audit agency’s test of 306 items identified the following deficiencies related to the Central
Inventory System Listing:

   •   The Listing included 17 items that had been sent to surplus.
   •   The Listing included 2 items that were reported as stolen.
   •   The Listing included 8 errors related to the tag numbers and location of assets. These
       include items found in locations other than the location indicated on the inventory
       records, items with 2 inventory tag numbers, and transposition of the numbers of the
       inventory tag.
   •   The Listing did not include 3 items that should have been included.
   •   The Department did not provide inventory tags for 2 items.

     The audit agency’s test also identified 10 property items for which required numbered
decals were missing or had not been provided. The numbered decals were used so that
equipment ownership could be easily identified.

Recommendation

       We recommend that FWS ensure that the Department develop and implement sufficient
controls to correct the deficiencies in its asset management system.




                                                9
Department and U.S. Fish and Wildlife Service Responses

         The Department stated that they are in the process of conducting complete inventories at
all office sites throughout the state and making appropriate entries into the asset management
system from these inventories. The Department further stated that the property management
system is completely accurate and up to date. The FWS did not provide a written response to the
recommendation.

Office of Inspector General Comments

       The Department’s response was adequate to resolve and implement the recommendation.

F. Control Over Real Property

       The working papers concluded that overall the Department’s land management system
was adequate to ensure that lands purchased with Federal Aid funds or restricted license
revenues were properly used or disposed of in accordance with the Code of Federal Regulations
(43 CFR 12.71) “Real Property.” However, the auditors found differences between the listing of
lands purchased with Federal Aid funds maintained by FWS Region 4 and the listing maintained
by the Department.

                                                              Acres
                    Location                         Dept.   FWS    Difference         Notes

    Beaver Dam Wildlife Management Area              5,810    4,749           1,061       1
    Horse Creek Wildlife Management Area             2,728    1,690           1,038       1
    Sapelo Island Wildlife Management
    Area                                          10,922     16,000           5,078       2
    Paradise Public Fishing Area                   1,060      1,025              35       1
    Marben Public Fishing Area                       600          0             600       3

    1. Beaver Dam and Horse Creek Wildlife Management Areas and Paradise Public
Fishing Area. According to the working papers, the Department’s records show that the 1,690
acreage difference was purchased with Federal Aid funds. The working papers did not indicate
whether the differences for Beaver Dam and Paradise involved Federal Aid funds.

    2. Sapelo Island Wildlife Management Area. The Department’s records show that
15,568 acres of land were purchased, including 10,922 acres with Federal Aid funds. FWS
Region 4 records show, depending on the documentation used, that either 16,000 acres or 10,041
acres were purchased with Federal Aid funds. Therefore, the difference in acreage ranges
between 881 acres and 5,078 acres.

    3. Marben Public Fishing Area. The Department used a 100-yard buffer area, valued at
$775,800, around the lakes at the Charlie Elliott Wildlife Center as its matching share for Grant
No. F-56-5. The working papers indicate the 100-yard buffer zone equated to about 600 acres.
The Department’s land listing included in the working paper, however, did not identify what
lands were used for the match. The land acquisition records obtained from FWS Region 4 did
not include any acreage for the Marben Fishing Area.

                                                10
Recommendations

     We recommend that FWS coordinate with the Department to:

     1.      Reconcile the acreage differences identified for the Beaver, Horse Creek, and Sapelo
             Island Wildlife Management Areas and the Paradise Public Fishing Area and adjust
             the land records accordingly.

     2.      Identify and agree on the number of acres used as a match for the Marben Public
             Fishing Area and ensure that the acreage is properly reflected in the property records
             of both organizations.

Department and U.S. Fish and Wildlife Service Responses

         The Department stated that there were some discrepancies between the listings of lands
purchased with Federal Aid funds maintained by the FWS Regional Office and the listing
maintained by the Department. The Department researched its files maintained by its Real
Estate unit and reviewed supporting documentation such as closing statements and deeds, to
document acreage purchased with Federal Aid funds and provided the information to FWS in
letters dated September 25, 2002 and November 8, 2002.

          The FWS did not provide a written response to the recommendation.

Office of Inspector General Comments

      To resolve the recommendations, FWS should review the information submitted by the
Department and ensure that the land records are adjusted as appropriate.


        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written comments regarding the unresolved recommendations by April 7, 2003.

        This advisory report is intended solely for the use of grant officials of the U.S. Fish and
Wildlife Service and is not intended for, and should not be used by, anyone who is not cognizant
of the procedures that were applied and who agreed to the sufficiency of those procedures.

       If you have any questions regarding this report, please contact Mr. Gary Dail, Federal
Assistance Audit Coordinator, at (703) 487-8011.

cc: Regional Director, Region 4
      U.S. Fish and Wildlife Service




                                                 11
                                                                                             Appendix 1

              Summary of Claimed and Questioned Costs by Grant
                 Fiscal Years Ended June 30, 1998 and 1999
                                                                               Total                   Unreported
Grant                                  Period          Grant       Total       Quest.       Federal     Program
 No.      Description              From       To      Amount      Claimed      Costs        Share1       Income

E-1-20    Red-Cockaded             7/1/96   6/30/98    $151,458    $119,961    $12,263        $9,515
          Woodpecker
E-1-21    Statewide End. Species   7/1/97   6/30/99     133,326     133,326          0
E-1-22    Statewide End. Species   7/1/98   6/30/00     146,356     146,358      1,607         1,245
E-3-12    Statewide End. Plants    7/1/97   6/30/99      61,334      61,334     12,250         9,188
E-3-13    Statewide End. Plants    7/1/98   6/30/00      75,067      75,067      5,390         4,043
E-4-9     Loggerhead Sea Turtles   7/1/97   6/30/99      72,001      72,001          0
E-4-10    Coastal End. Species     7/1/98   6/30/00      76,001      76,001          0
F-16-34   SE Cooperative Fish      7/1/97   6/30/98      36,000      36,000          0
          Disease Project
F-16-35   SE Cooperative Fish      7/1/98   6/30/99      36,000      36,000             0
          Disease Project
F-24-25   Coordination             7/1/97   6/30/98     329,600     343,234             0
F-24-26   Coordination             7/1/98   6/30/99     308,544     398,675             0
F-25-25   Northern Fisheries       7/1/97   6/30/98     453,336     473,726             0
          Investigations
F-25-26   Northern Fisheries       7/1/98   6/30/99     453,336     542,491             0
          Investigations
F-26-25   Walton Experiment        7/1/97   6/30/98     596,264     678,427             0
          Station
F-26-26   Walton Experiment        7/1/98   6/30/99     593,008     670,578             0
          Station
F-28-25   SE Fisheries             7/1/97   6/30/98     555,004     551,894             0
          Investigation
F-28-26   SE Fisheries             7/1/98   6/30/99     507,004     536,051             0
          Investigation
F-29-25   South Central            7/1/97   6/30/98     742,200     843,729             0
          Investigations
F-29-26   South Central            7/1/98   6/30/99     742,200     892,097             0
          Investigation
F-30-25   Coastal Investigations   7/1/97   6/30/98     416,004     480,083             0
F-30-26   Coastal Investigations   7/1/98   6/30/99     416,000     464,409             0
F-33-21   West Central             7/1/97   6/30/98     487,200     531,033             0
          Investigations
F-33-22   West Central             7/1/98   6/30/99     446,248     556,259             0
          Investigations
F-36-19   NW Investigations        7/1/97   6/30/98     359,420      345,318         0
F-36-20   NW Investigations        7/1/98   6/30/99     375,420      411,491         0
F-41-13   Boat Ramp                7/1/97   6/30/98     560,380      447,916   124,787        93,590
F-41-14   Boat Ramp                7/1/98   6/30/99     600,000     *694,789     4,291
F-42-12   Genetics & Breeding      7/1/97   6/30/98      17,336       17,334         0
F-42-13   Genetics & Breeding      7/1/98   6/30/99      17,336       17,333         0
F-44-10   Aquatic Education        7/1/97   6/30/98     105,080      179,221         0                     $20,278
F-44-11   Aquatic Education        7/1/98   6/30/99     105,080      200,535         0                      18,403
F-48-5    Berrian County Fishing   3/1/98   6/30/99   1,466,672    1,460,490   248,577       186,433
F-56-5    Marben Public Fishing    7/1/97   6/30/98     312,300      312,300    10,764         8,073
F-56-6    Marben Public Fishing    7/1/98   6/30/99      80,668       80,668         0
F-60-3    Cool Water Springs as    7/1/97   6/30/98       5,772      *17,503     1,323
          Thermal Refuge
                                                      12
                                                                                                 Total                     Unreported
    Grant                                    Period                Grant            Total        Quest.       Federal       Program
     No.      Description                From       To            Amount           Claimed       Costs        Share1         Income

    F-63-1    Bo Ginn Aquatic            10/1/96    9/30/97          120,000           112,000            0
              Education
    F-63-2    Bo Ginn Aquatic            10/1/97    9/39/99          200,000           200,000            0
              Education
    F-64-1    Aquatic Vegetation on      7/1/97     6/30/98           71,200            71,200      4,684         3,513
              Bass
    F-64-2    Aquatic Vegetation on      7/1/98     6/30/99           62,640            62,640     50,896        38,172
              Bass
    F-65-1    Stream Survey              7/1/98     6/30/99          173,200           206,246          0
    FW-5-1    Automated Sportsman        4/1/98     6/30/00        2,876,356         2,863,853    101,259      101,2592
              Data System
    P-3-1     Swainson’s Warblers        7/1/97     1/15/00           15,645             2,000      1,569       1,5692,3
    P-4-1     Neotropical Migratory      7/1/97     6/30/00           12,510                 0          0
              Bird
    W-6-53    Coordination               7/1/97     6/30/98          126,000           133,114          0
    W-6-54    Coordination               7/1/98     6/30/99          126,000            87,734          0
    W-28-38   Wildlife Disease Study     7/1/97     6/30/98           12,120            12,120          0
    W-28-39   Wildlife Disease Study     7/1/98     6/30/99           12,120            12,120          0
    W-36-37   Statewide Wildlife         7/1/97     6/30/98        4,348,990        *4,787,406     16,956                           26,513
              Development
    W-36-38   Statewide Wildlife         7/1/98     6/30/99        4,215,708         4,734,965            0                         34,075
              Development
    W-55-7    Wildlife Surveys           7/1/97     6/30/98           88,000           190,075            0
    W-55-8    Wildlife Surveys           7/1/98     6/30/99           88,000           121,051            0
    W-57-7    Technical Guidance         7/1/97     6/30/98          227,000           249,987            0
    W-57-8    Technical Guidance         7/1/98     6/30/99          227,000           183,933            0
    W-59-3    Hunter Safety              7/1/97     6/30/98          533,334         1,127,961            0
              Education
    W-59-4    Hunter Safety              7/1/98     6/30/99          433,334         1,056,430            0
              Education
    W-61-1    Wildlife Research          7/1/97     6/30/98           89,500            8,714             0
    W-61-2    Wildlife Research          7/1/98     6/30/99           73,500           65,190             0

              Total                                              $25,971,112       $29,192,371   $596,616      $473,527            $99,269


1
 The Federal share is based on the percentage indicated by amounts shown on the grant agreement, which was generally 75 percent,
but did vary.
2
  The total questioned costs and the Federal share are the same because the questioned amount was determined based on the amount of
funds drawn down and not on the costs incurred.
3
 The final Financial Status Report due April 15, 2000, had not been submitted as of December 2000, when the audit agency
completed its fieldwork.

* Sufficient excess costs were claimed to offset the amount of questioned costs.




                                                                   13
                                                                                Appendix 2
                                  Management Issue
The working papers identified a management issue related to an internal control weakness
regarding the Department’s billing system drawdowns. Specifically, the working papers
disclosed that the Department did not have written policies and procedures for performing
drawdowns. The review found that the Department had no formal written procedures that
described billing responsibilities; accounting records used; and the controls needed to ensure
overbillings did not occur and the cutoffs were proper. Written procedures are necessary to
prevent or reduce errors, such as basing drawdown amounts on the amounts encumbered rather
than on the amounts expended, as discussed in the body of the report under “Questioned Costs.”
The Department should develop formal written procedures to address all aspects of its billing
drawdown process.




                                             14
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
